SUPREME COURT OF THE UNITED STATES

 
  
  

No. 20-
rrr nn ini ie RUSSERT xX
ANGELICA LIMCACO,
Petitioner,
ve
WYNN LAS VEGAS, LLC, A NEVADA LIMITED LIABILITY COMPANY,
AND STEVE WYNN,
Respondents.
weet tt ee eee eencnnnnnnnnnennnnennennennnnennenensanennnnnennnnnenncenentnnnennnnnnnennnensneeneenenX
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h),
I certify that the document contains 5,601 words,
excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing
is true and correct.

Executed on December 28, 2020
Marianna Iannotta
Sworn to and subscribed before me this 28" day of December, 2020.
MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County CP 300000
Commission Expires Apr. 20, 2021
RECEIVED:
JAN ~ 4 2001

OFFICE OF
SUPREME COUT
